C@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 20-1392

JASON FOWLER and MICAH PERKINS,
Petitioners,
v.
BRITTANY IRISH, Individually and as
Personal Representative of the Estate of Kyle Hewitt,
and KIMBERLY IRISH,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
FRATERNAL ORDER OF POLICE, AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5970 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 28th day of April, 2021.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

GEWERAL MOTARY-State of Nebraska A 2 4 4,
RENEE J. GOSS 9. { rere ‘.
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40880
